OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

October 14, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

Taylor v. Illinois, No. 20-5344

Dear Mr. Harris:
This letter is sent as a request by respondent, the State of Illinois, for an
extension of time to file its brief in opposition to the petition for a writ of certiorari
in the above-captioned case. Currently, the response is due on October 28, 2020. I
request an extension of 47 days to file the response, until December 14, 2020. My
office has contacted petitioner’s counsel, who indicated that he has no objection to
this request.
I request this extension because Assistant Attorney General (AAG) Erin
O’Connell, who has been assigned to represent the State in this matter, did not
handle the case in the Illinois Appellate Court and must familiarize herself with the
history of the case and the issue presented before beginning to draft the response.
Additionally, after AAG O’Connell completes a draft of the response, four
supervisors in the Office of the Illinois Attorney General will need to review it. To
avoid any conflict with the out-of-office plans of supervisors around the
Thanksgiving holiday, I request that the deadline for the response be extended into
December.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

This is respondent’s first request for an extension of time. It is not made for
the purpose of delay, but to ensure that respondent’s interests are fully protected.
Thank you for your attention to this matter.
Sincerely,

Michael M. Glick
Criminal Appeals Division Chief
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(312) 814-2232

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

cc:

Robert Corn-Revere
Davis Wright Tremaine LLP
1919 Pennsylvanian Ave., NW
Suite 800
Washington, DC 20006

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

